NO. 20-603

In the
Supreme Court of the United States
LE ROY TORRES,
Petitioner,
V.

TEXAS DEPARTMENT OF PUBLIC SAFETY,
Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the Supreme Court Bar and
that, on this 23rd day of December, 2020, copies of the BRIEF OF AMICI CURIAE
PHILIP C. BOBBITT, MICHAEL C. DORF, AND H. JEFFERSON POWELL IN
SUPPORT OF PETITION FOR CERTIORARI were sent by FedEx to:
Andrew Timothy Tutt
Arnold & Porter Kaye Scholer
601 Massachusetts Ave. NW
Washington, DC 20001
andrew.tutt@arnoldporter.com

Kyle Douglas Hawkins
Texas Attorney General's Office
P.O. Box 12548 (MC 059)
Solicitor General Division
Austin, TX 78711-2548
kyle.hawkins@oag.texas.gov
Respectfully submitted,

Arn Jacobsen

